<html>
<title> - [H.A.S.C. No. 111-160]SIMPLIFYING DEFENSE TRAVEL: REVIEWING PROGRESS ON IMPROVING THE DEFENSE TRAVEL SYSTEM FOR THE USER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-160]

SIMPLIFYING DEFENSE TRAVEL: REVIEWING PROGRESS ON IMPROVING THE DEFENSE 
                       TRAVEL SYSTEM FOR THE USER

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 27, 2010


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE
57-665                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
SCOTT MURPHY, New York
                Sean McDonald, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, April 27, 2010, Simplifying Defense Travel: Reviewing 
  Progress on Improving the Defense Travel System for the User...     1

Appendix:

Tuesday, April 27, 2010..........................................    25
                              ----------                              

                        TUESDAY, APRIL 27, 2010
SIMPLIFYING DEFENSE TRAVEL: REVIEWING PROGRESS ON IMPROVING THE DEFENSE 
                       TRAVEL SYSTEM FOR THE USER
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Fisher, David M., Director, Business Transformation Agency, U.S. 
  Department of Defense..........................................     4
Mitchell, Pamela S., Director, Defense Travel Management Office, 
  U.S. Department of Defense.....................................     3

                                APPENDIX

Prepared Statements:

    Fisher, David M., joint with Pamela S. Mitchell..............    32
    Wittman, Hon. Rob............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    48
    Dr. Snyder...................................................    43
    Mr. Wittman..................................................    48
SIMPLIFYING DEFENSE TRAVEL: REVIEWING PROGRESS ON IMPROVING THE DEFENSE 
                       TRAVEL SYSTEM FOR THE USER

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Tuesday, April 27, 2010.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. This is the 
HASC Subcommittee on Oversight and Investigations' third 
hearing, or third annual hearing, on the Defense Travel System, 
and we meet today to hear Department's efforts to simplify and 
streamline the system, which incurs over $10 billion in direct 
costs annually.
    One important question today is whether your efforts at 
simplification are going to benefit the travelers, the users of 
the system. In our previous two hearings, we have heard a 
Government Accountability Office (GAO) recommendation to 
improve this system. We will be interested in hearing about 
progress on those improvements.
    Last year, the Congress required you to submit a report to 
us this month. It was section 1058 of the National Defense 
Authorization Act for Fiscal Year 2010. Some of the elements of 
this report should include identifying aspects of travel 
procedure that were most confusing, inefficient, and in need of 
revision; opportunities to streamline policies and to reduce 
the Department's travel-related costs; a plan to identify the 
number of temporary vouchers that are manually, rather than 
electronically, processed; options to use industry capabilities 
and technologies; and recommendations for legislative actions 
that would assist the Department in its task of simplifying 
travel.
    We understand that this report is not yet finished, but we 
want the witnesses to tell us regarding any expected findings 
about what needs to be changed and the timeline for such 
change.
    Before I introduce our witnesses, I would like to hear any 
comments Mr. Wittman would like to make.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman. I appreciate your 
leadership and thank you for holding this hearing today.
    I want to welcome back our witnesses. Thank you so much for 
coming in and giving us an update as to where we are with this 
effort.
    You know, we heard from you back in 2009, and you told us 
then of the Department's efforts to make the Defense Travel 
System, or DTS, more comprehensive and user friendly. During 
that hearing, which was my first as ranking member, you 
acknowledged that progress had been made but that the DTS had a 
ways to go before it was a mature, fully accepted system used 
throughout the Department.
    My understanding from your testimony today is that further 
incremental progress has been made but that much more work 
remains. And while any progress is good, it is a little bit 
discouraging that we never seem to get to a point where we are 
actually at the finish line. We achieve results, but project 
completion remains elusive, and I realize it is a difficult 
effort to try to bring a lot of different elements of the 
system together, but nonetheless one that I think requires that 
we have that completion or endpoint in mind.
    I also understand that you have begun a new initiative 
called Defense Travel Simplification, to find ways to simplify 
the myriad of travel-related rules, laws and regulations that 
the Department must adhere to. No doubt the process of 
designing a Department-wide, Web-based travel booking, 
approval, and accounting system would be greatly eased if you 
had fewer mandates to consider as you design the system.
    I am interested in today's hearing about your plans in this 
regard and the challenges you face, the timeliness of this 
project, and how we on this committee can help. I know we have 
already helped by providing you a multitude of travel statutes 
to contend with and any suggestions you might have on how we 
can streamline these laws without disadvantaging Department of 
Defense (DOD) travelers would also be welcome.
    The Department has been working on DTS for 15 years, and 
the subcommittee is completing 2 years of oversight on this 
enterprise, and there is no question that developing and 
fielding an online travel system for an organization as large 
and diverse as the Department of Defense is a daunting 
challenge that anyone would expect to take some time, but 15 
years, I think, by anybody's standard, does seem excessive. And 
while I am encouraged that the Department continues their 
progress, I am discouraged that after 15 years we still have 
some ways to go. So I have to wonder when we can finally call 
the system complete, and what you see from our standpoint what 
we can do to help us get to that completion.
    Again, thank you today for joining us. Thank you for your 
insight and your efforts to get us where we are, and we look 
forward to your comments as to how we can get to completion on 
this project.
    Thanks again, Chairman Snyder. I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on 29.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Pam Mitchell, the Director of the 
Defense Travel Office (DTMO) at the Department of Defense, and 
David Fisher, the Director of the Business Transformation 
Agency (BTA) of the Department of Defense. You all have 
submitted a joint written statement, I understand. As you both 
will be making oral statements, who would like to go first? Ms. 
Mitchell.

   STATEMENT OF PAMELA S. MITCHELL, DIRECTOR, DEFENSE TRAVEL 
         MANAGEMENT OFFICE, U.S. DEPARTMENT OF DEFENSE

    Ms. Mitchell. Chairman Snyder, Congressman Wittman, and 
distinguished members of this subcommittee, thank you for the 
opportunity to be here today to update you on simplifying 
defense travel in the Defense Travel System.
    Currently the defense travel experience can be frustrating 
and confusing for travelers, approving officials, and finance 
personnel because of a myriad of travel regulations, trip 
types, computations, allowances, and laws. The Defense Travel 
System, or DTS, is also affected by and thus reflective of this 
complexity.
    Travel law, policy and process should be simple, efficient, 
relevant and flexible in order to facilitate traveler 
requirements in accomplishing the mission of the Department. To 
that end, the Fiscal Year 2010 National Defense Authorization 
Act directed DOD to develop a comprehensive plan to simplify 
defense travel.
    We are going to accomplish this task in three phases, which 
will result in a transformation of defense travel: Phase one, 
conducting a review of the travel policy. We completed this 
government-wide review in partnership with the General Services 
Administration (GSA) in 2009; phase two, reviewing and 
analyzing the business rules to see what we can simplify within 
the existing framework and what legislative changes will be 
needed to support the effort; phase 3, modeling, testing, and 
implementing approved changes.
    We believe that simplification of defense travel must be an 
evolutionary transformation over a period of years based on 
data-driven conclusions and fiscally responsible decisions. 
While the Department must make internal changes to accomplish 
our goals, we also know that some of our proposed reforms will 
require congressional action, and we will be asking for your 
help and support as we proceed with this huge endeavor.
    As I stated earlier, DTS is both affected by and reflective 
of the complex defense travel policy environment. An extremely 
successful enterprise-wide system, a travel technology expert 
recently noted of DTS that it was ahead of its time.
    When we testified last year, we were excited about 
expanding the capability of DTS to better serve our travelers, 
both in terms of added functions and enhanced user 
friendliness. However, our desire to accommodate increased 
usage by increasing functionality must be weighed against 
ensuring access to a stable, reliable, available, and secure 
travel system for the Department's 71 percent of temporary duty 
travelers using DTS.
    With greater understanding of the technical challenges in 
implementing the complex business rules associated with adding 
new functionality, we have reevaluated our plans as well as the 
DTS developmental timeline. Based on this reevaluation, we have 
deferred major functionality releases to focus on modernizing 
the software platform and maintaining a stable system. For 
example, we took a rigorous approach to testing the software 
for the planned addition of permanent duty travel to support 
permanent change of station, or PCS, moves to DTS.
    Through the testing process, 150 significant issues were 
detected. Because of their volume and severity, the Defense 
Travel Management Office, the DTMO, and the Business 
Transformation Agency, or BTA, recommended a pause in permanent 
duty travel (PDT) implementation. This recommendation was 
supported by our governance boards.
    Our customers are increasingly asking that we carefully 
weigh the risks of increasing functionality against maintaining 
system stability, and we are listening. As we move ahead, it is 
clear that our policies and enabling technologies must be 
jointly reviewed and managed to both simplify defense travel 
and transform the defense travel enterprise.
    Simplification of policy and process is not only critical 
to improving user friendliness for the traveler, leveraging 
capabilities of industry, and reducing outlays for the 
Department, but it is equally critical for improving DTS and 
creating a friendly, agile, and elegant user interface.
    Thank you for your continued support. I look forward to 
answering any questions you may have.
    [The joint prepared statement of Ms. Mitchell and Mr. 
Fisher can be found in the Appendix on page 32.]
    Dr. Snyder. Thank you. Mr. Fisher.

STATEMENT OF DAVID M. FISHER, DIRECTOR, BUSINESS TRANSFORMATION 
               AGENCY, U.S. DEPARTMENT OF DEFENSE

    Mr. Fisher. Thank you, Mr. Chairman.
    About a month ago I testified at a House panel on 
acquisition reform, and one of the key topics of that 
discussion was about metrics. How do we really know, from an 
objective state, whether or not our acquisition programs are 
performing well?
    So I thought I would frame my remarks today about metrics 
around DTS, not anecdotal evidence, but actual measurements 
that we have been able to put together in three main areas: 
efficiency, effectiveness, and cost. Any one of our programs 
should be able to be measured against these three different 
areas, and I would like to highlight some of the things 
relative to DTS.
    From an efficiency standpoint, we could talk again 
anecdotally about many of the things that DTS does to automate 
what used to be paper-based processes. But, again, that would 
be more anecdotal. On the evidence side, we look at the back 
end of the process, and one of the most important things for 
our members is timeliness of reimbursement, especially for our 
young members, our airmen, sailors, marines, and soldiers, 19-, 
20-year-old kids who need to have that reimbursement in a 
timely fashion. They simply can't afford otherwise.
    The statutory requirement is 30 days to get that 
reimbursement into their pocket, and historically, prior to 
DTS, it was the norm to be around 30 days and often many more.
    With DTS, our average has been for a long time now 
consistently about a week, about seven and a half days.
    So if you look from an efficiency standpoint, we are saving 
about 22\1/2\ days per voucher that we process. And if you 
multiply it out, around 12 million vouchers have now been 
processed in this tool. That is about 280 million days that we 
have gotten payments into the pockets of our members earlier 
than they would have without DTS, and I think that is an 
important element of efficiency that we have achieved for our 
folks in DOD.
    From an effectiveness standpoint, again, we could talk 
anecdotally about a variety of things, including the 
codification and enforcement of all these business rules that 
are embedded in this complexity of travel--and that is a big 
advantage for us as well. But, again, I wanted to find metrics 
in numbers.
    From an effectiveness standpoint, listening to our users I 
thought was one of the best ways of evaluating whether or not 
this tool is effective. For the second year in a row we have 
done a survey of our DTS travelers, and it is a scientific 
survey with a random sample of travelers, and we have asked 
them the question about effectiveness as a tool and how easy it 
is to use that tool.
    And so some of their responses to us, in terms of how 
difficult or very difficult it is to make an airline 
reservation, for example, in DTS, 15 percent of our users feel 
DTS is difficult or very difficult to make an airline 
reservation, 15 percent. For a car rental reservation, 6 
percent find it difficult or very difficult to use DTS for that 
function. For a travel authorization, it is 18 percent; for 
completing a voucher, it is 16 percent.
    So from an effectiveness standpoint, what our members are 
telling us is that 80 to 85 percent of our folks do not find 
DTS to be difficult or very difficult, and these are pretty 
much the four main things that we use DTS for.
    Now, DTS is not an intuitive tool. Most software are not 
intuitive tools. But the Department, through some training, 
through usage, has become proficient in using this tool, far 
different from what it was several years ago and, again, that 
is what our users are telling us from an effectiveness 
standpoint.
    The third element is cost, and I think, as Congressman 
Wittman pointed out, we spent a lot of money and a lot of years 
on this tool. And the first 10 years of this program, under the 
15 you cited, the Department had spent about $450 million, and 
we had processed fewer than 1 million vouchers.
    Now, I picked that timeframe for a couple of reasons. 
Number one is when Ms. Mitchell's organization, the DTMO, was 
stood up. It is also around the time that the BTA was stood up, 
and it is also around the time that some of these oversight 
hearings, both in the House and the Senate, began. And there 
was a lot more focus on DTS and the travel enterprise.
    So over the last 4 years, if we look at cost, we have 
processed 11.5 million vouchers. And from a bottom-line 
standpoint, over those 4 years, we have saved the Department of 
Defense around $200 million on these voucher processing costs, 
about $200 million in actual savings. In fact, we project we 
will save another $80 million or so for the Department from 
voucher processing costs in fiscal year 2010 alone as we 
continue to process more.
    So from a cost standpoint, an efficiency standpoint, and an 
effectiveness standpoint, using some of these real metrics, we 
think we have examples, especially in these last few years, 
where we have been able to make a difference and make a lot of 
progress.
    Now I know there are other numbers that we might want to 
talk about during the hearing. I am happy to answer questions 
about the number of trip types covered, number of legacy 
systems we have talked about before, usage percentages.
    We can get into those, but I want to just finish with one 
other number, and it ties into this topic of simplification.
    The number is 100, 100 ties to complexity. Because as we 
benchmark defense travel rules and the complexity that we have 
to live by in terms this system and in usage, we are not twice 
as complex as industry. We are not 5 times or 10 times or even 
50 times as complex as industry. We are about 100 times as 
complex as industry is for travel management rules, and that 
makes it very difficult to modernize and create that intuitive 
user-friendly tool.
    Every rule may have some benefit, but every rule has a 
cost. There is a cost to design it, to build it, to enforce it, 
to educate it, and every one of these little rules adds up and 
adds up and adds up and makes it very difficult for us to 
create that user-friendly, easy-to-use tool for the defense 
traveler.
    So over the last four years we think we have made a lot of 
progress, efficiency, effectiveness, cost. We have become 
proficient at using the tool. But to take it to that next level 
we believe simplification is necessary before we can add more 
functionality.
    Mr. Chairman, I look forward to your questions.
    [The joint prepared statement of Mr. Fisher and Ms. 
Mitchell can be found in the Appendix on page 32.]
    Dr. Snyder. Thank you all for being here. I think it is 
fair to say that those of us who are sitting on this side on 
this topic are glad we are sitting on this side, because we 
recognize the complexity of what you do, the importance of what 
you do, but also it is a challenge to deal with these kinds of 
issues.
    From your written statement, you say the following: The 
Department is currently reviewing what statutory changes may be 
required and will forward proposed legislation through the 
Department's legislative program.
    The problem with that is that it is from your written 
statement over a year ago, and so we are waiting.
    So when I--I mean, I think your written statement this year 
is kind of filled with the thought that you can't really 
transform without looking at the policies, needing legislative 
action. I think it is the clear message and yet 13 months ago 
you told us you were going to send stuff to us.
    So what is the status of us getting sent--we are going to 
be starting this year's Defense bill. If we miss this year's 
train, it will be another 13 months.
    Ms. Mitchell. Mr. Chairman, we do have draft legislation. 
It has been through an initial legal review. And we have been 
getting through the hearing prep, as you may imagine, but we 
are now getting ready to send it. It is ready for the next 
round of review.
    Dr. Snyder. Well, I don't know what that means. Did 
something happen from March of 2009? Did you expect that you 
would be getting a package to us in time for last year's 
Defense bill? I mean, this is 13 months later, and we still are 
doing what you call the initial legal review?
    Ms. Mitchell. Well, initially, to overuse that word, we 
thought this would be a little simpler than it turned out to 
be. We thought we could take existing legislation and retool 
it, if you will, reword it, rework it. What we ultimately had 
to do was take a blank sheet paper approach, to take the 
legislation that has served us well over the years, but that 
truly has compounded itself as time has gone by, most recently 
with last year's National Defense Authorization Act (NDAA) when 
we added three travel trip types to help our wounded warriors.
    So we have had to step back, take a holistic approach, and 
do an extreme amount of research to get it through the first 
legal review, which has concluded and, as I said, we are now 
getting ready to send it on again.
    Dr. Snyder. Well, that is a good segue to my second 
question, which is in your statement you say there are now 76 
different types of travel, an increase of three, because of 
last year's Defense bill. What if it was 1,112? Why is there 
something inherently wrong or complicated about 76? What if the 
Congress came back and said, 76 is it for all eternity? Does 
that mean that our system would always function the way it is 
now? I mean, what is inherently terrible about 76?
    I concur with the need to simplify. I don't want to come 
across too harsh here, except we have a lot of things in 
America where we have multiple jurisdictions and multiple 
different kinds of taxation and we use private industry 
functions, I mean, national corporation functions, not only 
through every tax jurisdiction in the United States, but 
throughout the world.
    And they don't come back to us and say we only really need 
76 different local tax jurisdictions, they don't say that. They 
go pay some computer guys and say give us a program so we know 
what our tax rates are in Lonoke County, Arkansas.
    Now why is there something inherently bad and evil about 
76, and what will your magic number be that if we get to you, 
you will think we are now in tall cotton?
    Ms. Mitchell. Well, first of all, let me say that I don't 
think it would be correct for me to say that there is anything 
inherently evil about 76. It is where we are over the course of 
decades. It is what we have come to.
    Dr. Snyder. Right.
    Ms. Mitchell. But behind those 76 are 2,000 pages of joint 
Federal travel regulations and joint travel regulations, over 
100 associated computations, and the list of various things 
that goes on and on. So while on its surface 76 may not sound 
terrible, it is all the things behind it, the underlying rule 
sets, if you will, that make it much more complex than that.
    We believe, based on the research that we have done and the 
analysis, that we can bring that down to about 10 different 
types of travel.
    Dr. Snyder. And that will require a legislative change?
    Ms. Mitchell. That will require some legislative change, 
yes, sir.
    Dr. Snyder. I appreciate what you are saying about the 
length of--I mean, the amount of pages. On the other hand, you 
know, there are a lot of TV ads that run January, February, 
March and early April about coming to us with your taxes, and 
we will figure it out like this with our super programs. And 
they would probably have--could talk about a whole lot more 
pages of Tax Code than what you just outlined.
    And I think that is a bit of the frustration we have. We 
think that technology and computer technology was set up to 
help us process whether it is 100 pages, 1,000 pages or 100,000 
pages very, very rapidly. That is where, I think, if we were 
having this discussion 500 years ago and we were all monks with 
pens and parchment, I would understand better. I am having more 
problems understanding why we can't deal with 76 programs and 
1,000 or so pages more quickly than we are.
    Mr. Fisher. If we have a moment I would like to add to 
this----
    Dr. Snyder. We are partners in this. I mean, there are a 
lot of things we have dealt you.
    Mr. Fisher. There are a couple of pieces that I would like 
to touch on. Again, the 2,000 pages of rules, which was my 
reference, the hundred times more complex than the industry 
average, is filled with things that, frankly, are somewhat 
incomprehensible in terms of why we would have to legislate or 
have policy down to that level of detail. So part of the 
frustration, I think, from a developer's side, is to figure 
out, well, why do we have all of this complexity in the first 
place and is it really serving a purpose?
    Dr. Snyder. By the term ``developer'' are you talking about 
somebody who is developing software?
    Mr. Fisher. Right. On the other side you make a comparison 
for tax, for example, and of course we would all agree that we 
wouldn't want our travel regulations in Defense to be as 
complex as the U.S. Tax Code. Nevertheless, the U.S. Tax Code--
--
    Dr. Snyder. Hold on a minute, I am going to interrupt you 
there. I want to be able, I want my gunnery sergeant over here 
to be able to walk into whatever the tax place is on the corner 
and say here is the information and get the answer right away. 
That is not an unreasonable thing. I think we don't want it to 
be as complex as the Tax Code. That obviously is not what is 
going to happen. But we want the efficiency of dealing with a 
thousand pages.
    Mr. Fisher. Right. So if we compare, if you look at the 
leading vendors in that space, of course that investment, that 
delivery of that tax solution isn't free. They spend hundreds 
of millions of dollars a year in R&D to deliver that 
capability, because there is a return on investment for them, 
it is a profitable enterprise for them.
    And, of course, we try to scale back our expenditures on 
R&D to the minimal that we can to be able to deliver the 
capability. And as we have found over the year, we have been 
able to accomplish a lot of that. We have a solution that 
meets, now, 61 out of those 76 trip types, which is far better 
than where we were a year ago when I think we were at around 
26. So we have added a fair amount of capability.
    And in some of the ones that we don't have delivered yet, 
permanent duty travel in particular, is a whole new sequence of 
a level of rules that right now, if we try to layer on top of 
the platform we have today, what we have found is that we 
continue to run into each other from a co-development 
standpoint. Many of these rules are repetitive, some are 
contradictory, some are different for civilian and military 
that we need to address. And what we have found is, when we 
have tried to automate this, like the tax software that you 
described, we take two steps forward and one step back.
    Our release is with all the regression testing that is 
necessary to account for every possible permutation, we would 
have to be spending millions and millions more dollars in 
testing to be able to get that right.
    Now, we could do that for a lot more money and more time. 
We believe it is prudent from a taxpayer dollar standpoint to 
take a different approach instead of simply automating the 
extensive list of rules that we have today, to re-ask the 
question, do we really need to have that level of complexity 
for this business process? And if the answer is ``no,'' focus 
on that simplification first and then deliver a tool that 
matches that possibly revised set of requirements.
    The alternative is we continue to spend $15-, $20-, $30 
million a year to chase the set of rules that we have today. 
That is expensive, it is doable, it is risky, especially to the 
stable platform that we have now. And we think there is an 
alternative to looking at simplification first and then 
readdressing our ability to meet that demand.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to try to put all of this in perspective. I know 
that you all have gone through a long arduous process to get 
the Defense Travel System to where it is today. But I still 
want to try to find out, you know, where that endpoint is. I 
appreciate the complications of the requirements you have to 
deal with across a wide variety of agencies, service branches.
    But can you put in perspective about when you expect DTS to 
be the sole, widely accepted source for booking DOD travel, and 
if you will let me know, if there is not a firm, complete end 
date when you expect to be there, can you give us an idea about 
where the inertia exists that may keep you from getting or 
giving us that end date to say we would expect that this would 
be when the system would be fully implemented and we are no 
longer reliant upon these legacy systems?
    Ms. Mitchell. I think also, to put it in perspective, DTS 
was designed to handle the routine temporary duty travel for 
the Department, and I would submit to you that it has done 
that, and it does that. It is, as we saw the great savings and 
the great usage that Mr. Fisher described, we decided that it 
could do more for us. And so we wanted to add permanent duty 
travelling, and we wanted to add a variety of other things.
    Truly where we are right now is dealing with an aging 
platform. An example I like to use is imagine if we were trying 
to use Windows 3.0 in today's world of software applications. 
We wouldn't be able to do it.
    Now, is DTS that bad? Certainly not, because it is used, as 
you know, by a wide variety of the Department.
    So to answer your question, that is why we are 
reevaluating, because we are really not sure that on its 
current platform that DTS is the system that should handle all 
travel for the Department. But certainly it is very capable of 
handling all routine temporary duty (TDY) travel.
    Mr. Fisher. So from a usage standpoint, where are we going? 
Part of the challenge in saying when are we done is that in 
many cases the rules continue to change. And as Ms. Mitchell 
mentioned, three new trip types were introduced via statute 
just this past fall.
    And, certainly, keeping up with those is one element that 
makes it difficult to say when we are going to be done. In that 
sense we will never be done because we know there will be 
policy changes, there will be statutory changes, and so that is 
one element of trying to answer that question.
    The permanent duty travel is one that, again, was not 
originally envisioned for DTS. We have taken a lot of look at 
it and have spent development time looking at that capability. 
And that is one of the areas that we sort of continue to run up 
against this growing sequence of rules and complexity that we 
are really just not sure that DTS is ever going to be the right 
platform for that set of business requirements as they stand 
now.
    If you take PDT out of the mix, we are really down to a 
very small category of TDY travel that is left that frankly, at 
this point, would probably not be cost-effective to automate 
anyway. The amount of dollars we would have to invest in the 
tool versus the number of trips that are actually taken 
probably there is not a great business case for.
    And the last piece, again, our usage, if you look at it we 
are about 70-71 percent usage for TDY travel. We have an 
outlier in that usage category of one of the services that has 
been a lower level compared to the rest. If you take them out, 
we are actually at around 80 percent for everybody else. So we 
have been spending a lot of time working with that one service 
trying to get them up to everybody else.
    We feel if we can get in that 80 to 85 percent range on a 
consistent basis, we know that there will be some cases where, 
again, it is not cost-effective or other legitimate reasons on 
why you would not use the tool for some portion of travel. We 
think 70 percent is not that answer, but it is not 100 percent 
either. It is probably in the 80 to 85, maybe 90 percent range.
    Because, again, there is probably some non-cost-effective 
elements of trying to automate that you would actually lose 
money instead of make money. And so that is sort of the target 
that we are trying to get to. And as we have emphasized in the 
discussion, we would like to be able to continue that 
investment in a simpler world to create that better tool for 
our user community, as opposed to continuing to pour dollars 
onto this aging platform where it is very, very complicated.
    Mr. Wittman. Just to follow up on that, then so what you 
are saying is you believe there is some efficiency or potential 
efficiencies there in upgrading the current DTS system to a 
higher functioning platform.
    Mr. Fisher. Yes.
    Mr. Wittman. Maybe parsing out the PDT travel element and 
maybe some other smaller elements of that and then having a 
multi-tiered system with each element of software or systems 
functioning in those areas where you can gain the greatest 
efficiencies?
    Mr. Fisher. There are two parts to that. Again, this 
program has been now in production for many years, eight, nine 
years and some of that original code is still in the baseline. 
And it is a programming language called Progress, which is very 
old, nobody uses it anymore, and we have been slowly migrating 
off the Progress platform into the more modern Java platform. 
We still have about 20 percent of the way to go to get Progress 
completely out.
    So from a tech refresh standpoint, that is one of the 
things that as we are looking at functionality, we have 
actually tried to accelerate that piece, because we think until 
that is done and the stability of the technology platform, 
would be a current inhibitor that we want to get out of the mix 
so that we can develop further capabilities going forward. So 
that is one piece.
    The PDT example is another. Whether or not it will ever be 
a good fit, based on today's level of complex requirements, on 
the current platform, I am very skeptical. Modernize the 
platform and hopefully potentially simplify the requirements, 
we might have a completely different technology solution to be 
able to offer based on that package.
    And so as that comes together over the next 6 to 12 months, 
or whatever time that the initial and the follow-on suggestions 
are made, we are going to be focusing on modernizing that 
platform and getting that Progress code out of there. At that 
point we will then be able to take a look at hopefully some 
revised requirements and come up with a good technology 
approach for those things that aren't covered today.
    Mr. Wittman. Mr. Chairman, I yield back.
    Dr. Snyder. Thank you, Mr. Wittman.
    Mr. Fisher, just by way of clarification, I didn't hear the 
number, did you say of 76 how many are online, is it 61?
    Mr. Fisher. Sixty-one, and we were at 26 a year ago.
    Dr. Snyder. Yes. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Maybe you said this, I 
am aware of the young people that just walked in the room, and 
they may trying to figure out what in the heck we are talking 
about here, but I wonder if you, what are the three most 
significant rules or regulations that you think should be 
changed that would simplify this? And, maybe, Ms. Mitchell, you 
basically said this. What are they?
    Ms. Mitchell. Gosh. I guess I really hadn't thought about 
it in that way, because there are so many. But let me give you 
a few examples of things that don't necessarily make sense to 
us, and some of these are certainly rules that the Department 
has inflicted on itself.
    For example, and this is one of my favorites because I used 
to be in the Army for 25 years, that when you are a service 
member, you cannot get paid for laundry until after 7 days and 
then only up to $2 a day. If you are a civilian, you may get 
paid after 4 days and get an unlimited amount of dollars, 
within reason of course, to pay for your laundry.
    That is the type of thing which also requires different 
programming in the system that you look at and you say why have 
we done this? In this case, I believe this is something we have 
done to ourselves, but why would we have that?
    For someone PCSing, if you are travelling with children, it 
makes a difference whether they are 12 or less than 12. And if 
they have a birthday while you are en route, then you also have 
a change in the way you have to do your travel computations.
    I don't know that I would characterize those as certainly 
the two most significant things, but they are the kinds of 
things that cause difficulty.
    Mrs. Davis. What abuse, the last example, what abuse of the 
system is that trying to correct? I mean, is it not true that a 
lot of the regulations and policies are there to prevent 
somebody from getting something that we don't think they should 
have?
    Ms. Mitchell. Yes, ma'am. I would absolutely agree with you 
on that, and I think that a lot of things were put into place 
for exactly that reason, to make sure that someone didn't 
violate something or couldn't abuse something. I can remember 
years ago you used to spend $10 on trying to police up a 2-cent 
phone call that a soldier had made. And then we realized, well, 
that is really not a wise use of dollars. So I believe that is 
absolutely an accurate representation.
    Mrs. Davis. Has anybody calculated what the cost would be 
if we didn't have a lot of these regulations or policies? And 
do they equate what it costs to have them in place?
    Ms. Mitchell. We are actually working on that right now. We 
have some simulation ongoing. We have recently gotten a model, 
and we are looking to pull data from the Defense Travel 
System's database to actually run those simulations to see 
where we are. Because the end state is we want to certainly be 
cost neutral as we simplify, and we would hope to be able to 
save dollars.
    For example, overhead in the private sector typically runs 
three to five percent in processing travel. A recent study a 
couple of years ago said in the Department it runs more like 13 
percent. So we believe there is certainly an opportunity there 
to save taxpayer dollars.
    Mr. Fisher. If I could add just a couple of other thoughts 
on that, and again, I think what we are describing are 
symptoms, not the overages, not an overarching element if we 
just take that one or take that one out. And that is why doing 
a fresh sheet, blank sheet of paper kind of approach is almost 
necessary here because basically the way I look at it is if 
anything happens that we think might go wrong, could go wrong, 
could possibly be done wrong, we create a rule for it to make 
sure that it doesn't, and we do that across 2,000 pages.
    I keep one on my desk. This is one that I keep on my desk. 
It was passed last fall, and it reminds me every single day 
that I sit down what I hope we avoid in the future.
    This was put out as a clarification to a GSA amendment and 
explanatory opinion about the difference between light 
refreshments and a continental breakfast. And this went through 
multiple revisions. I don't know if you can see the detail 
there, but you know in Microsoft Word you can actually track 
the changes. This one is for multiple revisions to be able to 
tell us that light refreshments, including a continental 
breakfast, are a deductible meal if otherwise qualified and 
served at a mealtime, e.g., breakfast 0600 to 0800. Light 
refreshments served during a break, not at a mealtime, are not 
a deductible meal. But that is not where it ends, because now 
we need to define what light refreshments are. So we now 
codified a light refreshment as assorted food or drink for 
morning, afternoon or evening breaks, excluding alcoholic 
beverages but including coffee, tea, milk, juice, soft drinks, 
doughnuts, bagels, fruit, pretzels, cookies, chips, muffins, 
and similar items.
    That is a level of complexity I really don't think we need. 
This is an example of what is in these 2,000 pages of rules.
    Now, again, somebody could come back from their TDY and 
they might have at a conference picked up a muffin during 
breakfast hours, and our cost to sort of oversee that and make 
sure that they don't seems to be excessive. So it is a bottom 
ground-level example of the kinds of things that maybe we don't 
need to have policy around.
    Mrs. Davis. When you say that it passed, are you saying 
that it passed from where?
    Mr. Fisher. This was adopted in the Joint Federal Travel 
Regulations and the Joint Travel Regulations, so we now have 
this in policy for both military and civilians. So that is two 
volumes. And there are four appendices that are cited 
associated with this.
    Mrs. Davis. It originates from where?
    Mr. Fisher. I believe this started with a query that 
occurred at GSA at the Federal level, and then this was the 
Department's method of codifying this rule in DOD policy.
    Mrs. Davis. Okay. The Congress didn't have anything to do 
with it.
    Mr. Fisher. I don't think Congress had anything to do with 
this one.
    Mrs. Davis. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Dr. Snyder. I think if you sit down it is a continental 
breakfast, and you stay on your feet it is light refreshments.
    Mr. Fisher. We will have to adjudicate that, and see if we 
can add that to the rules.
    Dr. Snyder. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
testimony. I apologize, you may have mentioned this earlier, 
for coming in late as well. When you talked about your 70 
percent and it would be 80 but for one service, which service 
is that, that is less participation?
    Mr. Fisher. The Air Force has historically been less 
utilizing of DTS than any of the other services. Their 
percentage is around 40 or 50 percent.
    Mr. Platts. Is there a logical explanation for that that 
they provide?
    Mr. Fisher. They, and, again, I would really defer to them 
to answer directly. I can only tell you what they have told us. 
There is a segment of their population in particular, the 
Reserve unit, that we have provided a capability, an automated 
capability, to interact with the Reserve auto-writing system. 
And we have been working with the Navy in particular, who has 
been very aggressive in partnering with us to adopt that 
capability, so that they can still write their orders in the 
Reserve system. But then we do the management of the travel 
itself, the plane reservation, the hotel, car if necessary, and 
then the voucher processing in DTS.
    The Air Force has been very reluctant to use that tool at 
this point and, again, their rationale why, I would really 
defer to them. But that has been a big segment of the 
population that has not come yet into DTS. There is an element 
of the Active service as well, but the Reserve component has 
been the biggest piece that simply has not been picked up by 
the Air Force that the other services have been much more 
aggressive in moving toward.
    Mr. Platts. Is there discussion, is this an issue that you 
raised to the Air Force of their lack of compliance or 
participation?
    Mr. Fisher. Both of our organizations have raised this 
several times. In particular, over the last year, as we were 
here a year ago looking at these metrics, it was the same 
outlier scenario a year ago. And there was some personnel 
turnover, some personnel who are now in place seem to be 
willing to partner and move forward in that direction, but we 
just haven't seen movement yet from the leadership to be more 
adopting of the tool at this point.
    Mr. Platts. My understanding, I apologize if this was 
addressed earlier, in the 2009 GAO review, they said of the 14 
recommendations, 6 had been adopted, 8 were not yet fully 
embraced and adopted. I apologize if you are repeating 
yourself, but is there an update on those other eight 
recommendations?
    Ms. Mitchell. We have actually just received contact from 
GAO, and they want to sit back down with us and follow up and 
go through. It would be fair to say that we have a disagreement 
as to what currently remains open and what is closed.
    Mr. Platts. And that discussion is scheduled or it is going 
to be occurring with GAO?
    Ms. Mitchell. It is, yes, in the near term.
    Mr. Platts. Because I, in my work with GAO as chairman of 
the Government Reform subcommittee for four years, including 
issues related to, especially in the Guard and Reserve side of 
the travel, found their insights very helpful, and they realize 
it is not going to be 100 percent agreement, but encourage 
close attention to their recommendations.
    Thank you, Mr. Chairman, I yield back.
    Dr. Snyder. Thank you, Mr. Platts.
    Mr. Fisher, I wanted to follow up on what you said and help 
me with where the ongoing challenge is. You said it is 61, 26 
last year, you are now at 61. There is one more for sure you 
know you want to do and you are working on it. It is a pretty 
big chunk of it. But then there are 11, 12, or 13 you are not 
even sure you want to incorporate in the system, and I can 
understand why. At some point it may be easier to send your 
grandma a written note rather than put it in your computer 
system. But doesn't that take away from your argument about the 
76? If 61 are already there, you have one more, what am I 
missing here, why you have brought up this issue again of the 
76? If you have already got 61 different--of the 76 in your 
system, you want to do one more for sure, a great majority of 
the remainder ones you don't even want to use the DTS for, what 
am I missing here?
    Mr. Fisher. I am not sure. I think a lot of it relates to 
simply volume. Of the 61, actually there are 6 related to PDT 
that we don't cover, so that would get us up to 67. And again 
the permanent duty travel would run into these challenges 
associated with the rules and requirements and what it would 
take to do on the platform.
    So of the 15 that we don't do, 6 are related to that.
    Of the TDYs, there are four that we actually will cover. 
They are relatively low volume. They are all sort of in the 
special rules category, and we are treating that as a single 
release that we think we can deliver. Again, it is a little 
questionable in terms of will we get the return on that 
investment, because the volume of those is pretty small, but we 
think with relatively little amount of investment we can take 
care of those.
    The only other ones that would be left, and, again, this 
would be sort of that cost/benefit, how complex are the new 
requirements, how many of these trips do we anticipate will 
take place in a given year, and how much will it cost us to 
automate both in the short term and the long term? And that has 
to do with the military entrance processing travel and the 
deployed travel.
    And there is, again, a fair amount of complexity associated 
with those. And I think before we take those on, along with the 
PDT, before we take that on, we would prefer to have this crack 
at simplification and then take on a simplified version of that 
to then be fully accountable, rather than take them on in the 
current requirements.
    If the Department overall eventually says that is the 
requirements, we need it to accommodate, we have N number of 
these trips a year, it is cost-effective, well, then we would 
have to take a look at going to implement that solution. We 
think it is worthwhile to pause for a moment and take a look at 
the simplification opportunity before we simply go invest in 
doing that.
    Dr. Snyder. In your written statement, you used the word 
``facelift'' a couple, three times. I know what the word 
``facelift'' means. I don't think that is a term of art, is it, 
in your business? When I think of a facelift, I think it will 
make it look prettier with no change of function.
    Is that what you are--when you use the phrase ``facelift'' 
as you did on page seven, an incremental usability facelift, 
does that mean you are going to make some small change that 
looks prettier but doesn't do anything?
    Mr. Fisher. So there is an element----
    Dr. Snyder. Oh, yes, is it lipstick on a pig, with giving 
credit to Governor Palin?
    Mr. Fisher. The issue of usability certainly has been 
discussed in these hearings before. As I said in my opening 
remarks, we clearly have demonstrated a level of proficiency in 
using the tool. That does not mean the tool is intuitive, it 
does not mean that somebody can simply sit down without any 
training or experience and use the tool.
    The rules engine and the things that are going on behind 
the scenes, that is in place. If there are incremental things 
that we can do to enhance the workflow or how much information 
is available on a given screen or the kinds of information that 
is available on a given screen, that would change the look and 
feel of the tool without really affecting the underlying 
capability, but may create a better user experience for that 
user, maybe a little less training necessary and make it a 
little bit more intuitive.
    Again, I think we need to balance that against the other 
things that we would potentially want to do in the tool and the 
other requirements that we have, given that we have achieved a 
level of proficiency that is, you know, far beyond the 
majority.
    But there are certain things that we have heard from our 
users that they have told us, if you could have it do this or 
have it do that, they believe that would enhance their 
experience for their members, and those are some of the 
facelift kinds of things that we are looking at.
    Dr. Snyder. But that is not a term of art in your business?
    Mr. Fisher. It is not a technical term.
    Dr. Snyder. That is what I am getting at because it implies 
that your website looks better and may not change function, but 
you actually mean minor improvements in function and usability?
    Mr. Fisher. Primarily usability in terms of that word.
    Dr. Snyder. And then you used the phrase incremental here, 
incremental usability. You can implement an incremental 
usability facelift and incrementally add minor functional 
enhancements. It seems like incremental small steps to do a 
facelift, small steps to do minor changes. You are really 
piling on here this sense of slow, evolutionary improvements 
through the eons of time, but I think that relates to your 
point of what you just made, you are taking a bit of a pause 
now with regard to simplification.
    Mr. Fisher. As we said, we need to modernize the platform, 
which is really independent of the user experience and that 
whole process of a technical upgrade piece. We, really, 
passionately need to accelerate that, which would put a more 
incremental improvement capability on top of that for either 
usability or the other mechanics, because it is sort of 
difficult to be doing all of that at once.
    So we are accelerating some things, extending the life 
cycle of some of these others, trying again to line up that 
work with hopefully opportunities to simplify so that when we 
do enhance capability it will be on a simpler model instead of 
on the current rule set.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. A question for both 
of you, do you have any preliminary thoughts about what 
Congress might be able to do to help in the advanced travel 
simplification program?
    Ms. Mitchell. Support for legislative change when it comes 
to you, and, really, in its essence, what we are looking to do 
is to take the decades worth of law, a holistic approach, and 
to streamline and, in fact, simplify those. And as laws have 
been added over decades of time, we even noticed there are 
inconsistencies in the way different terms are used, and it is 
not necessarily clear.
    We would like to do things that would enable us to take 
care of wounded warriors, for example, without having to come 
back to you for additional legislative authority. So that is 
sort of in a nutshell what we would be looking to do.
    Mr. Fisher. So I guess, Congressman, I would add, I don't 
run a policy organization. We do the system piece of this. We 
take those requirements and then we deliver them, and we try to 
inform those requirements with information about the usability 
of the tool.
    I have been around the Department now for about five years. 
We look at our, within BTA, we look at things from a framework 
standpoint, and simplification is one of the main things that 
we try to look for. In my experience in those five years it is 
something the Department does not do well, if at all. We don't 
really know how to simplify.
    We know how to make things complex. We know how to create 
2,000 pages of rules, and we know how to take things like light 
refreshments and turn it into a three-page rule.
    I have complete confidence in Pam's shop in trying to drive 
that change through the Department, but there is a layer of 
bureaucracy within the Department that does not embrace change 
very well, especially simplification. And there is a legal 
community, there are other elements that are very entrenched 
in, well, it is a rule, and we need to keep it that way.
    I simply say that to offer for your consideration at some 
point the Department may need help in simplifying. It may think 
for some reason that we can't, because we are going to be held 
to a congressional standard that if we don't have all of these 
rules, we are going to be called in front of a committee 
because somebody had a doughnut as a light refreshment and they 
saved 37 cents. There may be an element of that kind of give 
and take that would be necessary, because the reason that we 
create a lot of these rules in the first place is so that we 
avoid any possibility of being called on the carpet for that 
level of accountability.
    So the legal community and the Department, doing its job, 
is going to put a lot of rules in place to try to prevent a 
senior person from being called to be held accountable and so 
we create all of these rules.
    But as I said earlier, there is a cost to all these rules. 
There may be a give and take here necessary that will help the 
ideas that will come out of the policy shop to actually get it 
over the top to be able to become codified. Because in my 
experience in the Department we don't embrace that kind of 
simplification very well.
    Mr. Wittman. Got you. So what I am understanding, then, Ms. 
Mitchell, you talked about statutory help from this level, 
giving you a direction to, say, simplify. And it sounds like if 
we give that direction, we ought to make sure that there is 
some wording in there to make sure that it truly is the intent 
of Congress to simplify and that it is not something down the 
road that we say, well, we said simplify, but we meant 
something different or we are going to lambast you because 
somebody bought a doughnut when they shouldn't have bought a 
doughnut for breakfast.
    So, from my standpoint, then, we ought to make sure that we 
know, not only from our viewpoint, but also from the agency 
viewpoint, because I know how it goes, it is back and forth. 
There is an interpretation from folks below as to what Congress 
intended and what the language was, and then also how do you 
implement that?
    So I think it would be very helpful from our standpoint to 
know what language, from your perspective, is needed to make 
sure that we get to simplification, making sure we have the 
necessary checks and balances and then to protect against 
abuses. And we all know we want to do that.
    We have a responsibility to make sure we do that, but that 
we don't get so overwhelmed with that that we lose focus on the 
efficiencies that we are trying to build into the system. Like 
you said, if it were up to--you know, if it were up to a group 
of folks to design some of the systems today, we probably would 
have very, very different systems because of the complexity 
within the realm of government.
    So we want to make sure from your standpoint that you let 
this committee know, in the process, how we can best accomplish 
that, still providing the checks and balances, but also not 
losing sight of the efficiency and the simplicity we want to 
get back in the system.
    Mr. Fisher. Yes, sir, I would agree.
    Mr. Wittman. Thank you, Mr. Chairman, I yield back.
    Dr. Snyder. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. I would just echo that 
as well. I am still quite dumbfounded by your comment about the 
continental breakfast.
    Mr. Fisher. That is why I keep it on my desk every day to 
remind me.
    Mrs. Davis. Because it seems to me that had to go through 
so many hands or computer changes or what have you, and it 
really does concern me that we have that many individuals 
spending that much time trying to create a rule that has X 
value, that is really questionable. And I am glad that we are 
engaged in this, but I think I am still struggling a little bit 
with how you are going to get from A to Z here and whether you 
have a real plan, a documented plan, to do that, and are there 
a limited number of people who are allowed to weigh in on that, 
or do you have to go through the same reiterations time and 
time again every time you are trying to decide whether it is a 
doughnut or a croissant or something.
    Ms. Mitchell. Let me address that part first. There is a 
committee in place that it has been in place for a number of 
years called the Per Diem Committee, and it consists of 
membership from not only the military services, but all of the 
seven uniformed services. And so every time that these things 
are done it goes before that committee. That committee has 
advisory parts to it at a lower level, the military advisory 
panel and the civilian advisory panel. Some decisions like this 
one, I fear, were made at that lower level and then some go on 
to be made at the higher level. But yes, ma'am, all of these 
things are done in that regard.
    One of the challenges that we have as we are now--the Per 
Diem Committee used to have a separate staff, it still has a 
staff, but that staff now belongs to my organization, the 
Defense Travel Management Office. So one of the challenges we 
have going forward is really what is the right way to do this? 
Travel policy over the years, and this is part of what has made 
it so complex, has literally been done in a scatter-gun 
approach across the Department. Recognition of that is what 
caused the DTMO to stand up in 2006, but it is a huge beast and 
so it is taking us some time to figure out even how do we get 
our arms around this, and who are all of the people who have 
their fingers in travel policy so that we can figure out, well, 
wait a minute, maybe there is already something that covers 
that.
    The other thing, quite honestly, that we find is that those 
involved feel that they need top cover, and top cover means we 
must have a rule published that enables me to tell my service 
members this is how it will be done because for some reason 
there is a lack of desire to say this is the way we are going 
to do it. So it is really a compounding effect, if you will, 
over decades that we really have taken on now and are trying to 
simply.
    Mrs. Davis. You mention the number of individuals or the 
Department's legal counsel probably more so maybe than others 
who may fight change in this area because of their desire to be 
sure there is immunity from the Congress and whoever else. How 
do we try and get at that as far as you can see? I mean maybe 
my colleagues can weigh in on this, because I could see writing 
something that basically either gave that kind of immunity, if 
that is what is required, or how you really break that apart, 
because those organizations have been there forever. I 
understand what their jobs are, they are doing their job, but 
it is really not helpful.
    Ms. Mitchell. Yes, ma'am. And as we work our way through 
the various layers what we are doing is literally sitting down 
and saying here is what we are trying to do. Our first 
commitment is absolutely to do no harm and to make 
recommendations for change that are based on data, I mentioned 
modeling and simulation, and we would also like pilot authority 
so that we can try some of these things with a very limited 
constituency before we say yes, this is the way to go. Again so 
we can do no harm, so we don't break anything, so we can be at 
a minimum cost neutral and hopefully find some savings there.
    So as we are able to explain we are slowly making inroads. 
But as you might imagine it is those in the fiscal community 
who are most concerned about this. As we noted earlier, that is 
where these types of rules come from. I think it is a gradual 
road that we are on. And as we propose legislation what we hope 
to propose as it works its way through the coordination process 
is something that doesn't require us if it is enacted on the 
30th of October to automatically on the 31st of October have to 
change all of our rules. What we hope to be able to do is to 
sunset things over time while we prove a better way to go 
forward, again based on data-driven, fiscally responsible 
recommendations for change.
    Mrs. Davis. I am looking for language, we talked about the 
smell test, common sense, a layperson would have an 
understanding of. It seems to me that while we are trying to 
accommodate the military community and understandably at the 
same time there is an amount of common sense to this that one 
needs to really focus on and perhaps raise to a higher level 
than the more intricate process that you are involved in.
    Ms. Mitchell. Yes, ma'am, absolutely. And I think that we 
have lived over the decades in eras where we really have to 
focus on catching the person who does something wrong. What we 
are trying to do is change that mindset and focus on the people 
who are doing something right and who want to do something 
right and who would absolutely do it right if they knew what 
that right was. That again is the challenge. It is sort of like 
the old, gosh, I made a $0.02 phone call, and now the 
Department is going to spend $10 to find that person and 
collect the $0.02 plus interest from them. So trust the 
traveler, use common sense. Allow people to be innovative, to 
find new ways of doing things, to be able to leverage some of 
the things that we do in industry; perhaps to be able if we 
talk in terms of technology to use a commercial-off-the-shelf 
product like an Orbitz or an Expedia, which we can't use today 
because they can't accommodate our rule sets, our 76 types of 
travel.
    So absolutely I could not agree with you more, that at the 
end of the day, I am going to steal that from you, common sense 
is absolutely what we are after.
    Dr. Snyder. Both in this year's statement and in your 
written statement last year, you referred to the next 
generation travel system, what is the next generation travel 
system?
    Ms. Mitchell. I would say that we don't know what that is 
yet. We know a lot of things about it as we have embarked on an 
informed journey to gather information over the last year or so 
in partnership with Mr. Fisher's organization. We know that we 
want to be able to leverage things that are already out there 
so that we don't have to--and this is not a technical term of 
art either--so we don't have to stick build them, so we don't 
have to build things from scratch, so that we don't----
    Dr. Snyder. Let me put it another way. So if you get--you 
are going to present at some point some legislative changes, 
you are going to simplify them, we will adopt them, you will go 
from 76 different types of travel down to 11, you get your 
software developed. Is that the next generation travel system, 
or is there something coming like another airplane 10, 12, 15 
years, is that the next generation? When you said next 
generation, do you mean the results of this work that is going 
on now or once we get this done then you will be looking at 
something 6, 8, 10 years from now?
    Ms. Mitchell. We are working on both. What we have found as 
we talked to the travel industry----
    Dr. Snyder. We were kind of hoping as much time as it is 
taken that once we got this one fixed over the next year or two 
that would be it, but you are leaping ahead?
    Ms. Mitchell. We are leaping ahead, yes, sir. It would be 
shortsighted if we did not. Because there is so much change 
going on, we realize the aging platform we are dealing with 
right now and things are changing every day. The airlines, all 
the unbundling of the prices for example, now being charged for 
blankets and pillows and who knows what is next, carry-on 
baggage Spirit airlines announced. We have to look at all of 
those things as we move forward; while we are working on the 
things that we can affect in the nearer term, what can we do in 
the future? And we are looking at some more far-ranging things 
like tele-presence, which I don't know if you have seen that, 
but I would describe it as VTC, video teleconferencing, on 
steroids because literally you could be in Chicago and I could 
be sitting here and I would feel like I could reach out and 
touch you having now seen that.
    So there are up-and-coming technologies that we want to 
look at as we simplify to figure out how might those fit into 
our future to better enable us to do what needs to be done.
    Dr. Snyder. Mr. Fisher, you mentioned a dissatisfaction 15-
16 percent, in that ballpark?
    Mr. Fisher. Yes.
    Dr. Snyder. That means 85 percent are sort of okay. If you 
have 200 people on an airplane that means they are all 
Department of Defense related somehow, that means 30 or so are 
not very excited about how they got there, they might have 5 
empty seats because they actually couldn't get their ticket 
worked out before they got there. I know you are working to 
improve that.
    We did a little informal calling around, just asked some 
folks that are currently dependent on this system how they 
think it is going. Some thought it was okay, and others had 
some specific issues with it. I wanted to give you a specific 
problem we ran into, and you tell me where the flaw was in the 
system. And it was somebody who went online, system worked, got 
the confirmation for both the trip and the hotel that would be 
reimbursed--not be reimbursed but would be paid. They show up 
at the hotel, and the hotel says, ``no, you have got to pay for 
it.'' Where is the flaw in your system that they would get the 
notice at a time of going online that says your hotel will be 
paid, you don't have to worry about your own personal credit 
card, and they get to the hotel and find out they do indeed 
have to pay for it? How does somebody get a false sense of 
security?
    Mr. Fisher. To give a specific answer I will have to take 
it for the record and get you a response.
    Dr. Snyder. Okay.
    Mr. Fisher. Normally when we book a hotel room, we go and 
travel and bring our government travel card and we charge the 
room to the card, and then we go submit a voucher and the 
government travel card gets reimbursed directly from DTS to a 
disbursing system to pay off the card. If we could get the 
specifics on this case. If someone seemed to think a hotel 
would already be paid for, and there was no need to pay at the 
point, I would have to look into that expectation of why that 
was.
    Dr. Snyder. We will get that to you, but that seems like a 
different kind of a problem than someone saying, I didn't get 
anything, I couldn't get it worked out, and I had to get 
somebody to help me. They got it worked out and it went well, 
except it turned out it wasn't accurate information.
    Mr. Fisher. I would have to look at it specifically and get 
your response.
    [The information referred to was not available at the time 
of printing.]
    Dr. Snyder. I have just a couple more questions. On page 
three of your statement you talk about the desire to have from 
the Congress succinct and flexible authority. When you use the 
word ``flexible,'' what are you talking about there?
    Ms. Mitchell. Again, sir, that would be the ability to take 
care of the wounded warriors without having to ask for specific 
legislation in order to do that.
    Dr. Snyder. The flexibility to approve travel, flexibility 
for reimbursement rate, flexibility to say you are not in Group 
75, we will move you to Group 61. I am not sure what the 
flexibility----
    Ms. Mitchell. It required a specific legislative change in 
order to approve an attendant, a non-medical attendant being 
able to accompany a member. Or for someone to go to a memorial 
service as well as a funeral. Those are the types of things 
that would give us the flexibility to be able to do that.
    Dr. Snyder. So when something comes up like memorial 
service versus funeral or light refreshments versus continental 
breakfast, you would have some kind of inherent flexibility to 
say it is close enough, we don't have to have some rigid rule 
between the two or to say I am sorry because the funeral was 
three months ago, at this memorial service we can't reimburse 
you for that. Is that what you are getting at?
    Ms. Mitchell. Yes, sir.
    Dr. Snyder. Mr. Fisher, you have mentioned a couple of 
times this issue of comparing the military to private industry, 
and I guess that is part of your job actually to look for 
things out there in the private sector and figure out how it 
could help government. I think that is a worthwhile effort.
    On the other hand, you know a private investor is not very 
good at calling in an air strike or mobilizing or going to war. 
There are different entities. Isn't it fair to say given the 
size and complexity of our military with both the civilian and 
uniformed side that we could clearly overstate how much it 
should look like private industry?
    Mr. Fisher. Sir, I would agree with you, we are not the 
same. But we are talking about TDY travel here. And for much of 
our TDY travel, not all, like deployment travel, which is TDY 
travel, clearly different, you are not going to find that in a 
commercial environment, but a lot of the TDY travel that we do 
is very, very similar to what the commercial industry is. Again 
we have looked at both private sector and public sector as what 
does that rule set look for these different kinds of entities. 
In the commercial world we found a company that has a rule set 
that is five words.
    Dr. Snyder. What are the five words?
    Mr. Fisher. The five words were----
    Dr. Snyder. No doughnuts while sitting down. It could be.
    Mr. Fisher. I have it here. Something to the effect of do 
as you would do for yourself, something to that effect. I will 
get the words here for you in a moment.
    Dr. Snyder. That wouldn't work in my office.
    Mr. Fisher. I understand. That is why I am showing the 
extremes of what we see. But there are industry elements that 
take that extreme approach. The norm is again about this 20 to 
25 pages of documentation that describe sufficient information 
that governs travel. We looked in the public sector, and we 
just went to the Web, and we pulled down some academic 
institutions, other government institutions, what their travel 
policies are and sort of did a scatter shot and we found some 
that were 6 to 10 pages long. We found the University of 
Washington was about 50 pages and the government of Canada was 
about 150 pages. So we are getting up there a little bit more 
in terms of the level of complexity for a public sector 
organization. But we are 2,000 pages, there is nobody close to 
that. And this is around TDY travel, this isn't around dropping 
munitions on a particular location, this is travel regulations.
    I mean if we could get our 2,000 down by an order of 
magnitude or two, it would simplify the experience and cost to 
enable that capability dramatically and we would still be more 
complex than either industry or these other public sector 
institutions that we have looked at.
    So if you go from 5 words to 2,000 pages as the two 
extremes that we found, we think probably the optimal layer is 
somewhere in between but it is closer to the 20 pages than it 
is to the 2,000.
    I don't know what the right answer is, you couldn't put a 
marker on the wall and say you should have this many rules. 
Should we as a public sector organization, as Congressman 
Wittman pointed out, have an accountability responsibility to 
make sure that we don't have things related to fraud and abuse 
and an oversight responsibility that you would anticipate would 
have more rule sets than a commercial enterprise. But I don't 
think you would expect it to be 100 times more complex than a 
commercial enterprise. So there is a gradation there that I 
think somehow over time we have lost sight of, and we just keep 
adding more and more rules. Where the right answer is I am not 
sure. I think it is a lot closer to 200 than it is to 2,000.
    Dr. Snyder. I think my last question for the day, Mr. 
Fisher, I will make it a question for the record, would you 
provide for me, please, and we will make it part of our record 
here, the 1,000 or 2,000 pages of rules that you all currently 
have to comply with and also the 150 or so pages of the Canada 
rules?
    Mr. Fisher. I have them all right here.
    Dr. Snyder. We will make that part of our record here so we 
will know what we are talking about.
    Mr. Fisher. I would be happy to give it to you right now.
    Dr. Snyder. That would be great.
    [The information referred to is retained in the 
subcommittee files and can be viewed upon request.]
    Dr. Snyder. Mr. Wittman, do you have anything further?
    Mr. Wittman. No, thank you.
    Dr. Snyder. In closing, if you will see where you are with 
regard to legislative changes, we had the same discussion 13 
months ago, as you can tell the committee is eager to help you, 
if it is not ready, it is not ready, but you are not going to 
see us venture into the area of trying to improve the statute 
on travel without obviously your great input. We are dependent 
on you, and if it is any consolation you and I won't be having 
this discussion a year from now since I am not running for 
reelection, but I think the better way to go would be to see if 
we can make some improvements this year in this year's Defense 
bill if that is possible.
    Thank you all. We are adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                             April 27, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 27, 2010

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 27, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. It appears that DTMO cannot compel all of the services 
to use the Defense Travel System and that DTMO does not have final 
authority in rewriting the DOD-driven regulations. Who within the 
Department is responsible for approving and enacting the rewritten 
regulations?
    Ms. Mitchell. Currently, responsibility for travel regulations 
resides with the Per Diem Travel and Transportation Allowance Committee 
(PDTATAC), with oversight by Under Secretary of Defense for Personnel 
and Readiness, whose members are designated senior level 
representatives from their respective components.
    Operating independently of, the PDTATAC Committee is comprised of:

        <bullet>  Deputy Under Secretary of Defense (Military Personnel 
        Policy)

        <bullet>  Deputy Assistant Secretary of the Army (Military 
        Personnel)

        <bullet>  Deputy Assistant Secretary of the Navy (Manpower and 
        Reserve Affairs)

        <bullet>  Deputy Assistant Secretary of the Air Force (Force 
        Management Integration)

        <bullet>  Director of Personnel Management, United States Coast 
        Guard

        <bullet>  Director, National Oceanic and Atmospheric 
        Administration

        <bullet>  Director, Office of Commissioned Corps Force 
        Management, United States Public Health Service.

    Dr. Snyder. DTMO seeks to give the Department more flexibility in 
approving different types of travel that may arise (rather than 
legislating for every eventuality). Using the example of allowing the 
Department flexibility to approve wounded warrior attendant travel or 
funeral and memorial service travel, at what level would the Department 
seek to locate approval and oversight for such travel?
    Ms. Mitchell. The Department would seek to locate approval and 
oversight of travel, such as wounded warrior attendant travel or 
funeral and memorial service travel, with the Office of Under Secretary 
of Defense for Personnel and Readiness (OUSD(P&R)). Under OUSD(P&R), 
Defense Travel Management Office (DTMO) oversees and centrally manages 
travel within the Department of Defense. OUSD(P&R)/DTMO, in 
consultation with the Services, could most expeditiously revise rates, 
terms, and conditions for travel, expand eligibility requirements as 
needed, and could delete outdated provisions when appropriate.
    Dr. Snyder. Your written statement was very different to your oral 
presentation. Please provide a copy of your oral opening statement.
    Ms. Mitchell. A copy of my oral statement follows:

          Chairman Snyder, Congressman Wittman and distinguished 
        members of this subcommittee, thank you for the opportunity to 
        be here today to update you on simplifying defense travel and 
        the Defense Travel System.
          Currently, the defense travel experience can be frustrating 
        and confusing for travelers, approving officials and finance 
        personnel, because of a myriad of travel regulations, trip 
        types, computations, allowances and laws. The Defense Travel 
        System, or DTS, is also affected by and thus reflective of this 
        complexity. Travel law, policy and process should be simple, 
        efficient, relevant and flexible in order to facilitate 
        traveler requirements in accomplishing the mission of the 
        department.
          To that end, the fiscal year 2010 National Defense 
        Authorization Act directed DOD to develop a comprehensive plan 
        to simplify defense travel. We're going to accomplish this task 
        in three phases, which will result in a transformation of 
        defense travel. Phase one, conducting a review of travel 
        policy--we completed this government-wide review in partnership 
        with the General Services Administration in 2009. Phase two, 
        reviewing and analyzing the business rules to see what we can 
        simplify within the existing framework and what legislative 
        changes will be needed to support the efforts. Phase three, 
        modeling, testing and implementing approved changes.
          We believe that simplification of defense travel must be an 
        evolutionary transformation over a period of years based on 
        data-driven conclusions and fiscally responsible decisions. 
        While the department must make internal changes to accomplish 
        our goals, we also know that some of our proposed reforms will 
        require congressional action, and we will be asking for your 
        help and support as we proceed with this huge endeavor.
          As I stated earlier, DTS is both affected by and reflective 
        of the complex defense travel policy environment. An extremely 
        successful enterprise-wide system, a travel technology expert 
        recently noted of DTS that it was ahead of its time. When we 
        testified last year, we were excited about expanding the 
        capability of DTS to better serve our travelers, both in terms 
        of added functions and enhanced user friendliness. However, our 
        desire to accommodate increased usage by increasing 
        functionality must be weighed against ensuring access to a 
        stable, reliable and secure travel system for the department's 
        71 percent of temporary duty travelers using DTS.
          With greater understanding of the technical challenges in 
        implementing the complex business rules associated with adding 
        new functionality, we have reevaluated our plans, as well the 
        DTS developmental timeline. Based on this reevaluation, we have 
        deferred major functionality releases to focus on modernizing 
        the software platform and maintaining a stable system. For 
        example, we took a rigorous approach to testing the software 
        for the planned addition of permanent duty travel to support 
        permanent change of station, or PCS, moves to DTS. Through the 
        testing process, 150 significant issues were detected. Because 
        of their volume and severity, the Defense Travel Management 
        Office, the DTMO, and the Business Transformation Agency, or 
        BTA, recommended a pause in PDT implementation. This 
        recommendation was supported by our governance boards. Our 
        customers are increasingly asking that we carefully weigh the 
        risks of increasing functionality against maintaining system 
        stability, and we are listening.
          As we move ahead, it's clear that our policies and enabling 
        technologies must be jointly reviewed and managed to both 
        simplify defense travel and transform the defense travel 
        enterprise. Simplification of policy and process is not only 
        critical to improving user friendliness for the traveler, 
        leveraging capabilities in industry and reducing outlays for 
        the department, but is equally critical for improving DTS and 
        creating a friendly, agile and elegant user interface.
          Thank you for your continued support. I look forward to 
        answering any questions you may have.

    Dr. Snyder. Provide your three-phase plan for DTS simplification, 
with at least notional timelines, for your current effort, even if it 
does not include the 8-10 out-years' effort. This should include: a. 
Simplification of DOD and service business rules, policies, and 
regulations; b. Simplification of laws--provide legislative proposals; 
c. Modeling, testing, and implementation of simplification; d. 
Improvements to the Defense Travel System based on these changes. If 
you have them available, please provide component timelines for items 
a-d.
    Ms. Mitchell. a) In order to ensure simplification of DoD service 
business rules, policies and regulations, the Department will use a 
multi-pronged, incremental approach over multiple years to implement a 
comprehensive, transformational solution for travel and DTS 
simplification (i.e., a-d above). This simple timeline is the overall 
framework for travel simplification.


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .epsb) The simplification of laws and statutes begins with 
simplified statutes and broader authority that will enable the 
Secretary of Defense, in consultation with the Secretaries of the 
Military Departments, to redefine and increase flexibility of travel 
policies. The Department's proposed revision to chapter 7 of title 37, 
U.S. Code was submitted in accordance with Chairman Snyder's request 
for drafting service.
    c) Modeling and analysis will result in the development of feasible 
alternatives for simplified and streamlined travel related processes. 
Each statutory change will require a specific, detailed implementation 
plan that will include adjustments to policy, systems, training, and 
other affected areas as appropriate and necessary. Over the past four 
years, the Defense Travel Management Office (DTMO) has made tremendous 
progress in collecting and consolidating travel data. As data continues 
to be gathered and refined, the solutions for travel simplification 
will become clearer. Using pilot programs for proof of principle and 
selection of alternative solutions will pave the way for smart, data 
driven, fiscally responsible decisions.
    d) The Defense Travel System (DTS) will continue to be improved by 
these data driven measures. If travel policy can be dramatically 
simplified, we can create an elegant, agile user solution based on 
streamlined business processes.
    Dr. Snyder. What are the major barriers within the Department to 
simplification of DOD and service travel rules and regulations?
    Ms. Mitchell. For simplifying DoD travel, there are four major 
barriers: 1) a desire for absolute fiscal accountability, 2) a 
propensity for rule making for every travel situation, 3) an 
expectation of specific statutory support for every travel rule or 
expenditure, and 4) an institutional resistance to change.
    Dr. Snyder. What are the three most significant DOD or service 
rules or regulations that need to be changed to simplify DOD travel?
    Ms. Mitchell. The three most significant rules or regulations that 
need to be changed to simplify DoD travel are: 1) burdensome 
documentation that is required for ``actual expense'' reimbursements; 
2) cost comparisons; and 3) the need to justify ``actual and 
necessary'' travel expenses.
    Currently, under ``actual expense'' reimbursements, documentation 
requirements are burdensome, as the traveler is required to 1) retain 
receipts for all lodging, meals, incidental and miscellaneous expenses 
for the entire period of travel, and 2) these expenses must be averaged 
over the period of time. Elimination of language that calls for 
``actual expense'' reimbursements would allow these types of travel to 
be treated instead like a normal business TDY, where the traveler gets 
full reimbursement for airline ticket, rental car, hotel and a per 
diem. This allows for a less burdensome documentation requirement and 
greatly simplifies travel for service members and their dependents.
    Cost comparisons drive complexity because, under the current 
construct, every detail of a trip must be known upfront and then 
compared the cost to the government (using commercial air 
transportation) against the mode of travel the member is actually 
requesting. This requires an approving official to determine what a 
cost of a taxi might be to and from the residence or airport, projected 
parking fees and any other cost a traveler may incur. Many of these 
costs are just ``best guess'' estimates and not true costs. Eliminating 
cost comparisons and allowing the approving official to reimburse based 
on like travel would go a long way towards simplifying and demystifying 
a complex procedure.
    The use of actual and necessary expenses for travel as defined in 
title 37, section (d)(2)(B) requires reimbursement for ``actual and 
necessary expenses.'' This has been interpreted to mean why a cost is 
actually needed and why it is necessary. This has created problems in 
trying to keep pace with the ever changing nature of travel. For 
example, when the airlines started to un-bundle services such as 
charging separately for checked-in bags, there was hesitation to 
authorize such reimbursements because they were not explicitly included 
as an authorized expense. The Department believes that a change should 
be made to authorize a ``reasonable and necessary'' expense.
    Dr. Snyder. What are the three most significant laws that need to 
be changed to simplify DOD travel? a. Provide an example of 
``prescriptive legislation'' and how it should be rewritten to be 
``succinct'' and provide ``flexible authority to empower the Department 
to develop comprehensive business rules that will cover all types of 
travel.''
    Ms. Mitchell. The current title 37 is too diverse to identify only 
three sections that need to be changed. To simplify travel, we believe 
that all the sections below need change:

  404. Travel and transportation allowances: general.
  404a. Travel and transportation allowances: temporary lodging 
        expenses.
  404b. Travel and transportation allowances: lodging expenses at 
        temporary duty location for members on authorized leave.
  405. Travel and transportation allowances: per diem while on duty 
        outside the continental United States.
  405a. Travel and transportation allowances: departure allowances.
  406. Travel and transportation allowances: dependents; baggage and 
        household effects.
  406a. Travel and transportation allowances: authorized for travel 
        performed under orders that are canceled, revoked, or modified.
  406b. Travel and transportation allowances: members of the uniformed 
        services attached to a ship overhauling or inactivating.
  406c. Travel and transportation allowances: members assigned to a 
        vessel under construction
  407. Travel and transportation allowances: dislocation allowances.
  408. Travel and transportation allowances: travel within limits of 
        duty station.
  409. Travel and transportation allowances: house trailers and mobile 
        homes.
  410. Travel and transportation allowances: miscellaneous categories.
  411. Travel and transportation allowances: administrative provisions.
  411a. Travel and transportation allowances: travel performed in 
        connection with convalescent leave.
  411b. Travel and transportation allowances: travel performed in 
        connection with leave between consecutive overseas tours.
  411c. Travel and transportation allowances: travel performed in 
        connection with rest and recuperative leave from certain 
        stations in foreign countries.
  411d. Travel and transportation allowances: transportation incident 
        to personal emergencies for certain members and dependents.
  411e. Travel and transportation allowances: transportation incident 
        to certain emergencies for members performing temporary duty.
  411f. Travel and transportation allowances: transportation for 
        survivors of deceased member to attend the member's burial 
        ceremonies.
  411g. Travel and transportation allowances: transportation incident 
        to voluntary extensions of overseas tours of duty.
  411h. Travel and transportation allowances: transportation of family 
        members incident to the serious illness or injury of members.

    Many of these statutory provisions have been added over time and 
written in a prescriptive format seeking to incorporate every nuance to 
address a specific travel situation. For example, a military 
dislocation allowance covered under title 37 U.S.C. Section 407, cites 
eligibility criteria and when it is payable. Instead, a simple sentence 
such as ``Reasonable and necessary travel expenses may include but are 
not limited to cost of transportation, lodging, and meals; dislocation 
or relocation expenses paid in connection with a member's temporary or 
permanent duty assignment location'' would provide the Department great 
flexibility, without limiting us to prescriptive language. (NOTE: The 
above is a mere example of possible language and does not reflect the 
Administration's position or endorsement.)
    Dr. Snyder. Your written statement was very different to your oral 
presentation. Please provide a copy of your oral opening statement.
    Mr. Fisher. My oral statement is below.

          About a month ago, I testified at a House panel on 
        acquisition reform. And one of the key topics of that 
        discussion was about metrics: How do we really know from a--an 
        objective state whether or not our acquisition programs are 
        performing well? So I thought I'd frame my remarks today about 
        metrics around DTS, not anecdotal evidence, but actual 
        measurements that we've been able to put together in three main 
        areas: efficiency, effectiveness and cost. Any one of our 
        programs should be able to be measured against these three 
        different areas, and I'd like to highlight some of the things 
        relative to DTS.
          From an efficiency standpoint, you know, we could talk again 
        anecdotally about many of the things that DTS does to automate 
        what used to be paper-based processes. But, again, that would 
        be more anecdotal. On the evidence side, we look at the backend 
        of the process. And one of the most important things for our 
        members is timeliness of reimbursement, especially for our 
        young members, our airmen and sailors and Marines and soldiers, 
        19-, 20-year-old kids who need to have that reimbursement in 
        a--in a timely fashion. They simply can't afford otherwise. The 
        statutory requirement is 30 days to get that reimbursement into 
        their pocket. And, historically, prior to DTS, it was the norm 
        to be around 30 days and often many more. With DTS, our average 
        has been for a long, long time now consistently about a week, 
        about seven and a half days. So if you look from an efficiency 
        standpoint, we're saving about 22 and a half days per voucher 
        that we process. And, if you multiply it out, around 12 million 
        vouchers have now been processed in this tool. That's about 280 
        million days that we've gotten payments into the pockets of our 
        members earlier than they would have without DTS. And I think 
        that's an important element of efficiency that we've achieved 
        for our folks in DOD.
          From an effectiveness standpoint, again, we could talk 
        anecdotally about a variety of things, including the 
        codification and enforcement of all these business rules that 
        are embedded in this complexity of travel--and that's a big 
        advantage for us as well. But, again, I wanted to find metrics 
        and numbers. And, from an effectiveness standpoint, listening 
        to our users I thought was one of the best ways of evaluating 
        whether or not this tool is effective. And, for the second year 
        in a row, we've done a--a survey of our DTS travelers. And 
        we've--it's a scientific survey with a random sample of 
        travelers. And we've asked them the question about 
        effectiveness of the tool and how easy it is to use that tool.
          And so some of their responses to us in terms of how 
        difficult or very difficult it is to make an airline 
        reservation, for example, in DTS--15 percent of our users feel 
        DTS is difficult or very difficult to make an airline 
        reservation--15 percent. For a car rental reservation, 6 
        percent find it difficult or very difficult to use DTS for that 
        function. For travel authorization, it's 18 percent. For 
        completing a voucher, it's 16 percent. So from--from an 
        effectiveness standpoint, what our members are telling us is 
        that 80 to 85 percent of our folks do not find DTS to be 
        difficult or very difficult. And these are pretty much the four 
        main things that we use DTS for.
          Now, DTS is not an intuitive tool. Most software are not 
        intuitive tools. But the department, through some training, 
        through usage, has become proficient in using this tool, far 
        different from what it was several years ago. And, again, 
        that's what our users are telling us from an effectiveness 
        standpoint.
          The third element is cost. And I think, as Congressmen 
        Wittman pointed out, we spent a lot of money and a lot of years 
        on this tool. In the first 10 years of this program, out of the 
        15 that you cited, we--the department had spent about $450 
        million. And we had processed fewer than 1 million vouchers. 
        Now, I picked that timeframe for a couple of reasons. Number 
        one is when Ms. Mitchell's organization, the DTMO, was stood 
        up. It's also around the time that the DTA was stood up. And it 
        was also around the time that some of these oversight hearings, 
        both in the House and the Senate began, and there was a lot 
        more focus on DTS and the travel enterprise. So over the four 
        years, if we look at cost, we've--we've processed 11.5 million 
        vouchers. And, from a bottom-line standpoint, over those four 
        years, we've saved the Department of Defense around $200 
        million on these voucher processing costs, about $200 million 
        in actual savings. In fact, we project we'll save another $80 
        million or so for the department for voucher processing costs 
        in F.Y. '10 alone as we continue to process more.
          So, from a cost standpoint, an efficiency standpoint and an 
        effectiveness standpoint, using some of these real metrics, we 
        think we have examples, especially in these last few years, 
        where we have been able to make a difference and make a lot of 
        progress.
          Now, I know there's other numbers that we might want to talk 
        about during the hearing. I'm happy to answer questions about 
        number of trip types covered, number of legacy systems we've 
        talked about before, usage percentages. We can get into those. 
        But I want to just finish with one other number, and it ties 
        into this topic of simplification. The number is 100--100 ties 
        to complexity, because, as we benchmark Defense travel rules 
        and the complexity that we have to live by in terms of this 
        system and in usage, we're not twice as complex as industry. 
        We're not five times or 10 times or even 50 times as complex as 
        industry. We're about 100 times as complex as industry is for 
        travel management rules. And that makes it very difficult to 
        modernize and create that intuitive, user-friendly tool.
          Every rule may have some benefit, but every rule has a cost. 
        There's a cost to design it, to build it, to enforce it, to 
        educate it. And every one of these little rules adds up and 
        adds up and adds up and makes it very difficult for us to 
        create that user-friendly, easy-to-use tool for the Defense 
        traveler. So, over the last four years, we think we have made a 
        lot of progress, efficiency, effectiveness, cost. We've become 
        proficient at using the tool. But, to take it to that next 
        level, we believe simplification is necessary before we 
        continue to add more functionality.

    Dr. Snyder. Provide a copy of the survey results you cited on ease 
of use for the Defense Travel System.
    Mr. Fisher. The circled percentages reflect the survey results 
cited in the testimony. A white paper detailing the survey process is 
also attached.
    [The information referred to is retained in the subcommittee files 
and can be viewed upon request.]
    Dr. Snyder. Provide the rest of the data for the statement ``Over 
the first 10 years, DOD spent $450M to process 1M vouchers, and over 
the last 4 years DOD processed 11.5M vouchers and saved 
$200M.''Assuming the $450M was an initial investment that retained some 
utility over the last four years, in order to compare appropriately, 
how much was spent over the last four years?
    Mr. Fisher. For the period of FY06 to the end of the first quarter 
FY10, the Department invested $206M on the DTS program. As stated in 
testimony, during this period, DTS processed just over 11.5 million 
vouchers, generating a net savings to the Department during this period 
of just under $200M.
    Dr. Snyder. Please provide the reason for the breakdowns in the 
following uses of DTS:

    a. Field-grade officer recently showed up at the airport on a 
Sunday for a TDY and was told there was no reservation or ticket for 
him. Even though the staff had signed and approved the authorization in 
DTS, Carlson Travel said that DTS did show that it was approved but 
Carlson Travel did not ticket the flight. A glitch in the DTS system 
did not release it to the Carlson in time.
    b. When DTS is scheduled for downtime for system maintenance after 
duty hours, it always has outages and irregularities during the duty 
hours before the system is scheduled to go down. When a TDY 
authorization is signed in DTS, it will go to the CTO submit status and 
hang in that status until a call is made to DTS to have them release it 
back to our organization for approval. There have been some occasions 
where a call had to be made 2--3 times before it is released back to 
our organization's queue for approval.
    c. Approving Official has to approve authorization (TDY orders) 
twice: 1) after initial booking; and 2) once flights have been 
ticketed.

    Mr. Fisher. a. Without specific information on the trip, it is not 
possible to determine the cause of the incident. Processes outside DTS 
at the ticketing activity, like Carlson, can be the source of such a 
glitch. DTS is designed to provide positive feedback to travelers upon 
ticketing, normally three business days prior to travel. This allows 
travelers to engage local support services if positive ticketing 
acknowledgement is not received. Additional details and information 
about the trip would allow us to conduct a more thorough assessment.
    b. Without specific information on the irregularities it is not 
possible to validate or provide an explanation about the statements; 
however, the DTS Program Management Office (PMO) has no current or 
historical data documenting any operational outages and/or 
irregularities before a scheduled maintenance downtime. While the PMO 
understands that a TDY authorization may hang up in a CTO submit 
status, it would not be a result of system maintenance, but rather due 
to system operations or user/approver generated issues. The PMO 
continuously and closely monitors any occurrences and when found 
addresses them immediately.
    c. DTS does not require approval by an Authorizing Official (AO) 
twice. However, if there is a change made by the traveler above 
predetermined thresholds or funds are not obligated, DTS will route the 
changed authorization back to an AO for approval. Prior to the DTS 
interface with reserve order writing systems, which allows approvals to 
be completed in the order writing system in lieu of DTS, there were two 
approvals required, one in the order writing system and one in DTS.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Provide your three-phase plan for DTS simplification, 
with at least notional timelines, for your current effort, even if it 
does not include the 8-10 out-years' effort. This should include: a. 
Simplification of DOD and service business rules, policies, and 
regulations; b. Simplification of laws--provide legislative proposals; 
c. Modeling, testing, and implementation of simplification; d. 
Improvements to the Defense Travel System based on these changes. If 
you have them available, please provide component timelines for items 
a-d.
    Mr. Fisher. The Business Transformation Agency (BTA) defers to the 
Office of the Under Secretary of Defense for Personnel and Readiness, 
Defense Travel Management Office on this question.
    Mr. Wittman. What are the major barriers within the Department to 
simplification of DOD and service travel rules and regulations?
    Mr. Fisher. The Business Transformation Agency (BTA) defers to the 
Office of the Under Secretary of Defense for Personnel and Readiness, 
Defense Travel Management Office on this question.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. What are the three most significant DOD or service 
rules or regulations that need to be changed to simplify DOD travel?
    Mr. Fisher. The Business Transformation Agency (BTA) defers to the 
Office of the Under Secretary of Defense for Personnel and Readiness, 
Defense Travel Management Office on this question.
    Mrs. Davis. What are the three most significant laws that need to 
be changed to simplify DOD travel? a. Provide an example of 
``prescriptive legislation'' and how it should be rewritten to be 
``succinct'' and provide ``flexible authority to empower the Department 
to develop comprehensive business rules that will cover all types of 
travel.''
    Mr. Fisher. The Business Transformation Agency (BTA) defers to the 
Office of the Under Secretary of Defense for Personnel and Readiness, 
Defense Travel Management Office on this question.

                                  <all>

</pre></body></html>
